NOTE: Portions of this Audit Report concerning intra-agency deliberative information have
     been redacted.




                              Office of Inspector General


                                Evaluation of NARA’s
                             Affiliated Archives Program


                                    Report No: 06-10


                                      August 9, 2006
                                                             OIG Report No. 06-10


Executive Summary:

The National Archives and Records Administration (NARA) Office of the Inspector
General (OIG) performed an audit of NARA’s Affiliated Archives Program. The
dual purpose of the audit was to determine whether (1) the Affiliated Archives
Program is meeting its intended goal and function, and (2) affiliate archives
participants were complying with management controls and ensuring that NARA
records were properly accounted for and appropriately secured.

NARA’s affiliated archives, through a formal Memorandum of Understanding
(MOU), agree to house, maintain, and service NARA records in accordance with
pertinent Federal laws and appropriate NARA regulations and archival and facility
standards. The affiliates are responsible for all costs for establishing and
maintaining the records and archival facility. According to the Deputy Archivist,
the Affiliated Archives Program grew out of a Congressional mandate that created
the Oklahoma Historical Society affiliate. Furthermore, NARA determined that
affiliated archives were the only way to gain access to specific collections of
accessioned records held outside of agency facilities. Initially, the relationships
between NARA and the affiliates were strained. However with the passage of time,
the Affiliated Archives Program has facilitated mutually beneficial and positive
partnerships between NARA and the affiliates. The foundations of such
relationships lie in the affiliates’ genuine and constant efforts to service NARA’s
records to the best of their abilities given today’s environment of severely limited
resources.

While conducting the review, the auditors identified that while the Affiliated
Archives Program is meeting its intended goal and function to a measured degree,
opportunities exist to improve upon and expand the program to provide the
American public with even greater access to NARA records. There are currently at
least fifteen entities that have expressed interest in the program, including the
Central Intelligence Agency and the District of Columbia National Guard.
However, the former archivist’s administration directed the program not be
expanded to encompass these entities nor marketed to other organizations such as
State Archives, Colleges, and Universities that store historical documents. The
current Archivist of the United States, Professor Allen Weinstein, has taken a
markedly different posture and directed NARA staff to pursue new affiliated
relationships as NARA moves to form partnerships with others in the archival
community.

The evaluation identified that while NARA has improved management oversight
over the Affiliated Archives Program, opportunities exist to strengthen internal
controls to ensure that records are protected from damage and loss. Specifically,
our review disclosed two critical conditions that adversely impact the program.




                                      2

               National Archives and Records Administration
                                                                OIG Report No. 06-10


 • Outdated MOUs exist that govern the relationships between NARA and the
    respective affiliates. Individual affiliates are held to inconsistent requirements
    and standards for housing and maintaining holdings.

 • With the exception of one of the existing eight affiliated archives, all failed to
    meet the current NARA Archival Storage Standards.

NARA records are presently held at only a limited number of affiliates. These
facilities do not consistently meet preservation standards and agreements are out-
dated. Program expansion would further meet NARA’s mission of providing ready
access to our holdings. However, physical and environmental controls must be
standardized and adequate to protect records from degradation or loss so that they
can be viewed by future generations. To address this condition, this report contains
six recommendations that, upon adoption, will help ensure that NARA records are
protected while improving access through additional partnerships.




                                       3

               National Archives and Records Administration
                                                              OIG Report No. 06-10


Background:

The Archivist of the United States is authorized to establish affiliated archives
pursuant to 44 USC § 2107(3). Specifically, the Archivist may direct and effect,
with the approval of the head of the originating agency, the transfer of records,
deposited or approved for deposit with the National Archives of the United States to
public or educational institutions or associations; title to the records to remain
vested in the United States unless otherwise authorized by Congress. Thus, an
“Affiliated Archive” is a public or educational institution or association that holds
and maintains physical custody of records that are accessioned into the legal
custody of NARA. These entities act as agents for NARA and perform access,
reference, and other archival functions.

There are currently eight affiliated archives. The Affiliated Archives Program
offers an alternative to the usual physical transfer of permanent historical records
into a NARA facility from the creating agency by instead permitting the records to
be maintained and made available to the public at a non-NARA facility by non-
NARA staff.

NARA 1501, Custody of Federal Records of Archival Value, dated February 28,
2003, addresses the authority and responsibility of the Archivist regarding the
physical and legal custody of Federal records determined to have sufficient
historical value to warrant their continued preservation. It also contains provisions
for the deposit of records of archival value outside the physical custody of NARA.
According to section 1501.10, the Archivist uses six criteria to determine whether it
is in the public’s interest to establish an affiliated archive. Affiliates must:

   1. Provide specialized public access to the records and the information in the
      records beyond what NARA provides;

   2. Demonstrate an institutional commitment to the long-term preservation of
      the records. They must store and maintain records under preservation
      conditions that are at least equal to those that would be provided by NARA;

   3. Demonstrate the capability to protect the information in the records in
      accordance with the Freedom of Information Act;

   4. Agree to follow NARA reference, arrangement, description, preservation,
      and security guidance;

   5. Agree to permit NARA to examine the records and review how they are
      being managed, preserved, and made available for research; and

   6. Agree to notify NARA as early as possible of any substantial risk that they
      might not be able to continue to preserve or provide access to the records.

                                       4

                National Archives and Records Administration
                                                                OIG Report No. 06-10


NARA 1502, Procedures for Processing Proposals for Affiliated Archives, issued
on May 31, 2005, provides procedures for evaluating proposals to establish new
affiliated archives. The directive includes the various responsibilities of the
Archivist, Deputy Archivist, Office of Regional Records Services, General Counsel,
and Office of Records Services – Washington, DC.

Once an affiliate completes the proposal process and is approved to be an affiliated
archive a Memorandum of Understanding (MOU) is drafted. The MOU is the
formal document that describes the agreement between the two parties. NARA has
the responsibility to evaluate how well an affiliated archive is meeting its
responsibilities under the MOU. Several NARA units (NW, NA, NR, and NH)
share the responsibility for monitoring and providing guidance to the affiliated
archives.



Objective, Scope, and Methodology:

The overall objective of this project was to determine whether the Affiliated
Archives Program was meeting its intended goal and function. We also sought to
determine if program participants were complying with management controls and to
ensure that NARA records were properly accounted for and appropriately secured.
The review was conducted at Archives II in College Park, MD, within the Office of
Regional Records Services (NR) and the Office of Records Services (NW). NARA
Officials in the Office of the Assistant Archivist for Administration (NA) and the
Office of the General Counsel (NGC) were interviewed to determine their roles in
the Affiliated Archives Program.

We visited four of the eight affiliated archives to determine if they were functioning
as intended and to assess whether records were properly accounted for and secured.

We visited:
  • The William W. Jeffries Memorial Archives, U. S. Naval Academy, in
       Annapolis, Maryland,
  • Oklahoma Historical Society in Oklahoma City, Oklahoma,
  • Government Printing Office in Washington, D.C., and
  • The Library of Congress in Washington, D.C., which holds records of the
       National Park Service.

The chart on the next page shows the affiliated archives, their year of affiliation, the
cubic footage of NARA records held at the facility, and the type of records held.
The facilities visited during this review held 68 percent (9,751 cubic feet/14,295
cubic feet) of NARA’s records held at the affiliated archives.



                                        5

                National Archives and Records Administration
                                                                             OIG Report No. 06-10




                       NARA’s Affiliated Archives as of September 30, 2005

                                         Year of       Holding
                 Affiliate              Affiliation     (c.f.) 1           Type of Records

       US Military Academy                 1953            2,500 Records of the Academy

       US Naval Academy                    1985            2,256 Records of the Academy

       National Park Service/
       Library of Congress                 1975            3,595 HABS/HAER 2 Records

       Oklahoma Historical                                       Records of the Five Civilized
       Society                             1978            2,100 Tribes
       Pennsylvania State
       Archives                            1995                 1 John F. Hartranft Papers
       New Mexico State                                          General Land Office Records
       Records Center and                                        called the "Spanish Land
       Archives                            1972              142 Grant Archives"

       Yellowstone National
       Park Archives                       1978           1,901 Records of the Park
       Government Printing                                       Records of the GPO, content
       Office (GPO)                        2003          1,800 3 on GPO Access
       Total                                             14,295


      To accomplish our objectives we reviewed NARA guidance pertaining to the
      Affiliated Archives Program. We held discussions with NARA officials and
      reviewed pertinent documentation to determine whether NARA has adequate
      resources to operate the Affiliated Archives Program. The review also assessed
      whether management controls for the affiliated relationships were adequate. The
      evaluation was performed in accordance with Generally Accepted Government
      Auditing Standards.




1
  c.f. is an abbreviation for cubic feet.
2
  Historic American Building Survey (HABS)/Historical American Engineering Records (HAER)
3
  GPO holds 180 gigabytes of records. A gigabyte of records equals approximately 10 cubic feet. Thus
180 gigabytes equals approximately 1800 cubic feet.
                                                   6

                        National Archives and Records Administration
                                                                                   OIG Report No. 06-10


      Findings:


      The Affiliated Archives Program can be Expanded

      NARA has not taken the opportunity to expand the Affiliated Archives Program.
      This condition exists because the former administration reportedly was adverse to
      establishing additional affiliated agreements with external entities. The current
      Archivist has indicated his support for expansion of the Affiliated Archives
      Program to facilitate the Public’s ability to view historical documents in topical
      locations. This would help NARA in meeting its core mission of making records
      readily accessible to our customers to include the American Public.

      There are fifteen entities that have expressed interest in becoming an affiliated
      archive. (See listing in Appendix A on page 15). These entities approached NARA
      about becoming affiliates, but until recently NARA was not able to receive and
      process applications for the program. Under the former Archivist, NARA officials
      were instructed by the Director of Policy and Planning Staff (NPOL) not to pursue
      any new affiliated relationship. This policy was defined for more than five years
      because the former Director of NPOL thought that the Records Management
      Initiative needed to be completed and rolled out before NARA could decide how
      and when to consider new candidates for the Affiliated Archives Program. The
      current Archivist has defined his view that the Affiliated Archives Program can be
      marketed more effectively, and State Archives, Colleges and Universities, and other
      entities that store historical documents should be considered for program expansion.

      Currently, the U.S. Geological Survey is the only potential affiliate undergoing the
      application process. The Military History Institute and United States Patent and
      Trademark Office expressed interest in the program in calendar year 2005. Both
      were sent information on how to apply to the program. The other twelve entities
      have not re-initiated contact with Affiliated Archives Program staff and the staff has
      not pursued the affiliated relationships due to prior program direction.

      While NARA officials responsible for the Affiliated Archives Program agree that
      the program can be expanded, they expressed concern about resources to monitor
      the program should it grow. At NARA headquarters there are primarily two staff
      members that work with the Affiliated Archives Program. They are also
      responsible for monitoring 17 records centers, 14 regional archives, and 9 affiliated
      archives. 4 They feel that not adding additional resources to the program may limit
      the effectiveness of the oversight required for the program.




4
 The nine affiliated archives include the current eight affiliates as well as the U. S. Geological Survey
affiliate applicant.
                                                      7

                          National Archives and Records Administration
                                                               OIG Report No. 06-10


Recommendation:

1. The Archivist of the United States should continue in his efforts to support
expansion of the Affiliated Archives Program.


Management Comments

Management concurred with this recommendation stating that they will continue to
make individual decisions about this program as opportunities for new affiliates
arise.



Marketing of the Affiliated Archives Program Needs to Improve

With the exception of having links on NARA’s website for each of the existing
affiliates, we found that NARA does not effectively market its Affiliated Archives
Program, in part due to past program direction. As a result, individuals visiting the
affiliated archives are not aware of the relationship between NARA and the affiliate
or that a portion of the records housed at the affiliate are NARA records.

NARA has not created brochures or signage or conducted outreach to potential
affiliates, such as colleges and universities or states. NARA’s affiliated archives
website also does not discuss the advantages of being in the Affiliated Archives
Program.

When the auditors visited the affiliates, with the exception of the U. S. Naval
Academy, there were no signs indicating that the facility was an affiliate of the
National Archives. The Naval Academy had a plaque displayed in the research
room area that dedicated the library as the William W. Jefferies Memorial Archives.
The plaque states in part “Professor Jefferies integrated these archives into the
National Archives of the United States. He thereby made the historic record of this
institution an inseparable part of the official written and visual documentation of the
nation’s past.”

By reading the plaque, visitors to the Academy know that there is an
association/partnership between the U. S. Naval Academy and the National
Archives. The picture on the next page shows the plaque as it is displayed at the
Naval Academy’s Affiliated Archives.




                                       8

                National Archives and Records Administration
                                                                OIG Report No. 06-10




One of the affiliated facilities visited was also an affiliate of the Smithsonian
Institution. The auditors obtained a brochure from the affiliate, which described the
affiliate’s history and services offered. The brochure also indicated that the affiliate
was a member of the Smithsonian Affiliate Program. The brochure was utilized to
market the affiliate and to obtain membership funds for the affiliate and the
Smithsonian Affiliate Program. Although NARA’s Affiliate Program is not
structured to accept membership fees, a brochure describing the Affiliate Archives
Program, the affiliates, and the respective regions would increase public awareness
of the program and NARA as a whole. The Assistant for Operations, NR stated that
NR has set aside monies to develop an affiliated archives brochure this year, but it
may have to be developed next year because their current priority is a regional
archives system brochure.

Recommendation:

2. The Archivist of the United States should publicize the Affiliated Archives
Program through the use of brochures, signage and similar devices.


Management Comments

Management did not concur with the recommendation stating NARA’s resources
are limited, and management must use them to the agency’s greatest benefit.
Decisions on publicizing the affiliated archives program or any other NARA
program are made by management based on identified priorities.




                                        9

                National Archives and Records Administration
                                                              OIG Report No. 06-10


OIG Response

The Archivist of the United States has stated that increasing partnerships with the
Agency is a priority. The OIG believes that publicizing the existing relationships
with the Affiliated Archives is in direct line with the Archivist vision for the
Agency and should be considered a priority.



Outdated MOUs put NARA Records at Risk

The MOUs that govern the relationships between NARA and the affiliates lack
uniformity and required information is not included in all MOUs. Program officials
interviewed conveyed their belief that MOUs could not be modified once agreed to
by the parties. They also defined that should NARA attempt to revise the MOUs to
require heightened controls over holdings, some affiliates would balk and no longer
opt to remain program participants. According to OMB Circular A-123,
“Management’s Responsibility for Internal Control,” management has a
fundamental responsibility to develop and maintain effective internal control. The
Circular adds that continuous monitoring and testing of controls should help to
identify poorly designed or ineffective controls. Inconsistent language in MOUs
specific to internal controls over holdings at the same time has resulted in NARA
holding some affiliates to more stringent standards than others and affiliated
archival facilities not adhering to NARA Standards. Thus, holdings housed at
affiliated archives may be at risk for loss or damage.

NARA’s relationships with the affiliated archives are governed by a MOU. A
MOU is a legal document describing an agreement between parties. It is not a
contract, but frequently a precursor to one. Each affiliate has its own MOU that
was created when the affiliate was established. The establishment of the affiliated
archives relationship ranges from 1953 to 2003. Thus the MOUs were drafted at
different times and are not consistent from one to the next. Also, there is no formal
mechanism or procedure to update MOUs. Discussions between the OIG Counsel
and NGC disclosed that the MOUs between NARA and affiliated archives facilities
could be updated to reflect the most recent iteration of NARA policy on holdings
security and preservation. During the 50 years that the affiliated archives have been
in place, technological advancements in the areas of preservation and security over
records have occurred and the MOUs have not been updated to incorporate these
advancements.




                                      10

                National Archives and Records Administration
                                                                             OIG Report No. 06-10


      Affiliates are held to differing standards

      Inconsistent and non-uniform MOUs have resulted in affiliates being held to
      different standards. For example, research has shown that temperature and relative
      humidity are the most significant factors in preventing chemical damage to records.
      Specifically, damage to poor quality paper can be seen after 60 years when the
      holdings are stored at 65 degrees and 45 percent humidity, but the same paper
      would not show signs of deterioration for 120 years if stored at 60 degrees and 35
      percent humidity. NARA officials are aware of the importance of temperature and
      humidity to the preservation of records and require that NARA archival facilities
      adhere to a maximum of 65 degrees and 35 to 45 percent humidity to ensure
      deterioration of paper based records will not show for 85 years. However, they
      have not required the affiliated archives to adhere to similar standards. During the
      course of our review we found that two affiliates, per the MOUs, were not required
      to store the records at a specific temperature and humidity level. At the remaining
      six affiliated archives, based upon the existing MOUs, records at four affiliates
      could be expected to show signs of deterioration in 39 years, one in 44 years and
      one in 85 years. The latter site, The Government Printing Office is the only one
      that currently meets NARA standards for temperature and humidity per the MOU.
      (See Appendix B on page 16).

      Other inconsistencies found in the various MOUs during our review included:
      different inspection requirements; a statement that requirements for physical
      protection are subject to change; and the requirement for a disaster plan.
      Specifically, the Government Printing Office, National Park Service, and New
      Mexico Records Center and Archives MOUs state that records could be examined
      or inspected at anytime, while the other five MOUs required that NARA make an
      annual inspection. 5

      Although affiliated archives program officials believed that the MOUs could not be
      changed, the Pennsylvania Historical and Museum Commission’s MOU stated that
      the requirements for physical protection are subject to change. This was the only
      MOU that clearly states that the requirements for protecting the records could be
      changed by NARA.

      The Pennsylvania Historical and Museum Commission’s MOU was also the only
      MOU that specifically required a disaster plan. NARA 1561, Records Emergency
      Preparedness and Recovery in NARA Facilities, provides policy to prevent or
      minimize damage to records for which there is a threat of damage or loss by water,
      fire, chemical or biological contamination, or other causes. If records emergency
      preparedness is not included in the MOUs, NARA cannot hold affiliates responsible
      for planning to prevent or to minimize threats to NARA records.

5
  NARA 1501, Custody of Federal Records of Archival Value, states that the affiliate must permit NARA
to examine the records and review how they are being managed, preserved, and made available for
research. Thus, it is NARA’s practice to visit the affiliates on an annual basis.
                                                  11

                        National Archives and Records Administration
                                                               OIG Report No. 06-10


NARA 1561 also requires notification procedures and contact information for
reporting a potential threat, an existing threat, or damage to records (24 hours/day; 7
days/week) to be included as an element in a records emergency response and
recovery plan. For example, at the United States Military Academy in West Point,
New York, there was a small fire on the affiliate’s roof. Appropriate NARA staff
were not notified of the fire or potential damage to the records by the affiliate.
NARA staff became aware of the fire through a news report. If the affiliate was
operating under NARA’s policy for records emergency preparedness and recovery,
they would have been required to report the incident to NARA staff. Although
there was no damage to NARA’s records the affiliate should have called NARA
staff to report the incident.

We also found that none of the MOUs mentioned the policy and procedures for use
of the NARA Seal. NARA 102, Use of Official NARA Seals, requires that “any
time NARA enters into agreements with external organizations or individuals; there
must be a clause in the written agreement specifically stating that the external
organizations or individuals must obtain prior written approval from NARA before
using NARA seals for any purpose.” Although we did not find instances where the
NARA seal was misused during our review we believe the clause should be added
to the MOUs to protect NARA from potential misuse of its seal.

Although the relationships between NARA and the affiliates have improved
dramatically over the years, NARA program officials believe any attempt to change
the MOUs would sour the relationships and result in affiliates no longer wanting to
be part of the program. If affiliates left the program this would result in decreased
access to records and increased costs to NARA. Discussions with NGC revealed
that it is within NARA’s authority to appropriately update MOUs between NARA
and the affiliates as necessary.

Furthermore, according to NARA 1501, the Office of Administrative Services is
required to support NR and NW in monitoring facilities to determine if the affiliated
archives are meeting their responsibilities under the MOU. After conducting a field
visit to the Oklahoma Historical Society, the Agency Security Officer
recommended the MOU should be updated to incorporate current security
advancements since a new building was under construction. However, other
program officials believe MOUs should not be modified at the risk of losing
participation in the Affiliated Archives Program. The Agency Security Officer was
told that the MOU could not be updated. Based on this information he stated he
would no longer perform visits of the affiliated archives because the affiliates were
resistant to his review recommendations. He felt that conducting the reviews would
be a waste of resources for his staff because the recommendations they would make
would be based on current security guidelines and standards.




                                       12

                National Archives and Records Administration
                                                                 OIG Report No. 06-10


Affiliates do not meet Archival Storage Standards

Inconsistent MOUs have contributed to NARA affiliates not meeting current
archival storage standards. Specifically, seven of eight affiliates assessed do not
consistently meet NARA’s Archival Storage Standards. Responsible NARA
officials have not taken appropriate measures to ensure that affiliated archives meet
the applicable standards because they believed that the MOUs should not and could
not be changed. This belief resulted from the history of the Affiliated Archives
Program that began with contentious relationships. The storage requirements in the
MOUs are not in agreement with the current archival storage standards. NARA
1501, Custody of Federal Records of Archival Value, states that custodians of
NARA records must store and maintain records under preservation conditions that
are at least equal to those that would be provided by NARA. NARA 1571, Archival
Storage Standards, establishes structural, environmental control, fire safety,
preservation, and security standards for appropriate storage conditions in NARA
archival facilities. As a result of not being stored in facilities that meet the Archival
Storage Standards NARA records are at risk of damage or loss.

NARA’s fourth Strategic Goal is to ensure that “all records are preserved in an
appropriate environment for use as long as needed” and to that end NARA is
requiring that their facilities meet the appropriate standards by FY 2009. However,
as shown in Appendix C on page 17, six of the eight facilities are not storing
records at the required environmental levels. NARA 1571 Appendix A, specifies
the maximum acceptable temperatures and relative humidity in areas where records
are stored, processed, exhibited, or used. The directive also states facilities holding
NARA archival records should “use cooler temperature and drier relative humidity
set points whenever possible, as these conditions extend the life and significantly
enhance the preservation of records.” As the chart in Appendix B reflects, this is
not currently happening.

The auditors observed or were told about affiliated archive facilities non-
compliance with the Archival Storage Standards. These instances on non-
compliance include:

   •   The U. S. Naval Academy Affiliated Archives does not have sprinklers in
       the stack area and the stack area floor does not meet the floor load limit;

   •   The New Mexico State Records Center and Archives filters out carbonyl
       sulfide and carbon disulfide instead of the pollutants required to be filtered
       by NARA facilities; and

   •   The Government Printing Office does not have a fire suppression system
       and the individual server cabinets were not locked.




                                        13

                National Archives and Records Administration
                                                                    OIG Report No. 06-10




            Server at the Government Printing Office where NARA records are held.

As evidenced by the preceding examples, NARA officials have knowingly allowed
records to be stored at facilities that do not meet current standards. The Senior
Archivist for Affiliated and Regional Archives stated there is no incentive for the
affiliates to adhere to the current standards for the following reasons: The records
held in the affiliates are highly utilized and referenced at the various locations. The
records at some affiliates are cataloged and indexed better than records at NARA
facilities. The affiliates do not have the finances to adhere to the standards and the
alternative is to bring the records back to NARA where the Archival facilities also
do not currently meet the standards.

NARA and other organizations change policies and procedures on a regular basis to
keep up with changing standards and technologies; therefore it is not unreasonable
to have the affiliates keep up with appropriate environmental and security
standards. Having differing and outdated MOUs results in affiliates not following
approved NARA policy and taking advantage of advancements that help to preserve
records. Furthermore, storing archival records in facilities that do not meet the
published archival storage standards puts those records at risk.


Recommendations:

3. The Archivist of the United States should take appropriate measures to revise
MOUs between NARA and the affiliates to incorporate current standards for
housing NARA records.


                                         14

                National Archives and Records Administration
                                                              OIG Report No. 06-10


Management Comments

Management concurred with the recommendation indicating that it should be
NARA’s goal to improve the housing of NARA records in affiliated archives, and
that current MOUs can be revised, at the appropriate time, to incorporate 1571
standards.


4. The Archivist of the United States should ensure that there is a mechanism to
update the MOUs. Specifically a procedure should be established to update the
MOUs on an interim basis, or when new standards are implemented at NARA.

Management Comments

Management concurred with this recommendation. Analysis will have to be done
on how and when to best update MOUs since this could by resource intensive for
both NARA and the affiliated archives.


5. The Archivist of the United States should ensure that all MOUs contain the
required clause for the use of the NARA seal.

Management Comments

Management concurred with the recommendation stating that as MOUs are updated
the clause will be added.


6. The Archivist of the United States should ensure that all affiliates meet the
current storage standards or provide waivers and/or timeframes to have the affiliates
become compliant with the NARA 1571 standards.

Management Comments

[DELETED – 3 LINES] NARA should continue to encourage affiliated archives to
meet 1571 standards as soon as possible.




                                      15

               National Archives and Records Administration
                                                OIG Report No. 06-10



   Entities with Interest in Affiliated Archives Program
                   As of November 2005


                   Potential Affiliates

Bureau of Land Management, Eastern States Office
Central Intelligence Agency
District of Columbia National Guard
Genealogical Society of Utah
Military History Institute
National Agricultural Library
National Maritime Museum
National Oceanographic and Atmospheric Administration
National Park Service-a number of the parks
NASA, Lyndon B. Johnson Space Center, University of Houston-
Clear Lake Alfred R. Neumann Library (UHCL)
Securities and Exchange Commission
U. S. Geological Survey
U. S. Navy, Seabees
U. S. Patent and Trademark Office
Virgin Islands Territorial Government




                        16

   National Archives and Records Administration
                                                                                  OIG Report No. 06-10




                                Record Deterioration Rate by Affiliated Archive
                                    Based on Current MOU In Place

                                                       Temperature    Humidity
                  Affiliate             Year of           Required by MOU                     Signs of
                                       Affiliation                                          Deterioration
                                                                                             Seen After
                                                                                              (Years)
          US Military                                                                               39
          Academy                           1953           70° ± 4°         50% ± 4%
          US Naval Academy                                                                          39
                                            1985           70° ± 4°         50% ± 4%
          National Park
                                                               6
          Service/Library of
          Congress                          1975
          Oklahoma Historical                                                                       39
          Society                           1978           70° ± 5°         50% ± 5%
          Pennsylvania State                                                                        44
          Archives                          1995           70° ± 2°         45% ± 5%
          New Mexico State
                                                               7
          Records Center and
          Archives                          1972
          Yellowstone National                                                                      39
          Park Archives                     1978           70° ± 5°         50% ± 5%
          Government Printing                                                                       85
          Office                            2003             65°            35% ± 5%




6
    MOU did not contain a requirement to store records at a specific temperature and humidity.
7
    MOU did not contain a requirement to store records at a specific temperature and humidity.
                                                      17

                           National Archives and Records Administration
                                                             OIG Report No. 06-10



                    Status of Affiliated Archival Facilities Compliance
                           with the Archival Storage Standards
                                  as of January 2006
   Affiliate        Holding Compliant         Not             Reason for not being
                     (cf)                  Compliant               Compliant
US Military           2,500                    X         MOU allows records to be
Academy                                                  stored at a temperature higher
                                                         than allowed by standard
US Naval              2,256                    X         MOU allows records to be
Academy                                                  stored at a temperature higher
                                                         than allowed by standard, no
                                                         sprinklers in the stack area,
                                                         and floor not at proper load
                                                         limit.
National Park         3,595         X
Service/Library
of Congress
Oklahoma              2,100                     X        MOU allows records to be
Historical                                               stored at a temperature higher
Society                                                  than allowed by standard
Pennsylvania            1                       X        MOU allows records to be
State Archives                                           stored at a temperature higher
                                                         than allowed by standard, no
                                                         environmental monitors
New Mexico             142                      X        Does not meet filtration
State Records                                            standards, filters out carbonyl
Center and                                               sulfide and carbon disulfide
Archives                                                 instead of sulfur dioxide,
                                                         nitrogen dioxide, ozone,
                                                         formaldehyde, and acetic acid.
Yellowstone           1,901                     X        MOU allows records to be
National Park                                            stored at a temperature higher
Archives                                                 than allowed by standard
Government            1,800                     X        No fire suppression in the
Printing Office                                          main server room, back ups
                                                         retained for 1 month vs. 2
                                                         months, No large scale
                                                         uninterrupted power supply
                                                         for the current server room
                                                         and the individual server
                                                         cabinets are not locked.




                                     18

                National Archives and Records Administration
                                                                                   OIG Report No. 06-10


                                                  National Archives and Records
                                                                  Administration
                                                                                           8601 Adelphi Road
                                                                                      College Park, Maryland
                                                                                                 20740-6001


Date:        July 19, 2006

To:          OIG

From:        NR, NW, NA

Subject:     Office Comments on Draft OIG Report 06-10, Evaluation of NARA's Affiliated Archives
           Program- Revision to July 14, 2006, comments.

NR, NW, and NA are collectively providing the following comments on the above draft OIG evaluation:

Recommendation 1. The Archivist should continue in his efforts to support expansion of the Affiliated
Archives Program.

Six principal criteria are considered when making management policy decisions regarding this program.
These six criteria are outlined in NARA 1501, Custody of Federal Records of Archival Value and reiterated
in NARA 1502, Procedures for Processing Proposals for Affiliated Archives. Following this guidance,
NARA will continue to make individual decisions about this program as opportunities for new affiliates
arise.

Recommendation 2. The Archivist should publicize the Affiliated Archives Program through the use of
brochures, signage, and similar devices.

We do not concur with this recommendation. NARA’s resources are limited, and management must use
them to the agency’s greatest benefit. Decisions on the extent and form of publicizing this or any other
NARA program are made by management based on identified priorities.

Recommendation 3. Revise MOUs to protect and house NARA records to 1571 Standards.

We agree that it should be NARA’s goal to improve the housing of NARA records in affiliated archives,
and that current Memorandum of Understandings (MOU) can be revised, at the appropriate time, to
incorporate 1571 standards. The appropriate time, however, is when an affiliated archives either renovates
its current facility, or builds a new one. [DELETED – 4 LINES]

A factor affecting both NARA and the affiliated archives is the large sum of money needed to upgrade
existing facilities. Such large sums are as difficult for affiliated archives to obtain as it is for NARA.

Recommendation 4, mechanism to update MOUs:

We basically concur, although analysis should be done on how best and on when to update MOUs since
this could be resource intensive for both NARA and the affiliated archives. There will also be political,
legal, and relationship issues that will need to be carefully considered.




                                                      19

                          National Archives and Records Administration
                                                                               OIG Report No. 06-10

Recommendation 5. The Archivist should ensure that all MOUs contain the required clause for the use of
the NARA seal.

We concur with this recommendation. As MOUs are updated, this clause will be added. It is important to
note that in the interim, NARA regulations at 36 CFR 1200 regarding the seal are applicable to affiliated
archives. We will also remind affiliates on this point.

Recommendation 6, NARA ensures all affiliate archives meet current standards or provides waivers:

Our response is similar to recommendation 3. [DELETED – 2 LINES] However, we agree that NARA
should continue to encourage affiliated archives to meet 1571 standards as soon as possible.

Please contact Greg Pomicter or Jennifer Nelson if you have any questions.




THOMAS E. MILLS
Assistant Archivist for
Regional Records Services

Cc: NW, NA, NPOL




                                                   20

                         National Archives and Records Administration
